TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                     RECOVERY ACT


                        A Comprehensive Strategy Is Being
                         Developed to Identify Individuals
                         With First-Time Homebuyer Credit
                             Repayment Requirements



                                         August 16, 2010

                              Reference Number: 2010-41-086




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                         HIGHLIGHTS


A COMPREHENSIVE STRATEGY IS                          individuals with a 2008 home purchase from
BEING DEVELOPED TO IDENTIFY                          those with a 2009 home purchase. The IRS
INDIVIDUALS WITH FIRST-TIME                          also created a Homebuyer Credit Entity Section
HOMEBUYER CREDIT REPAYMENT                           on the tax accounts for individuals that received
                                                     the Credit.
REQUIREMENTS
                                                     However, our analysis identified an estimated
                                                     73,119 (4.1 percent) of the 1,774,718 individuals
Highlights                                           receiving the Credit had incorrect purchase
                                                     dates recorded on the IRS’ system; 59,802 of
Final Report issued on August 16, 2010               these taxpayers purchased their homes in 2009,
                                                     but the IRS incorrectly recorded the purchases
Highlights of Reference Number: 2010-41-086          as 2008 or the years were not recorded. These
to the Internal Revenue Service Commissioner         taxpayers could incorrectly receive notices
for the Wage and Investment Division.                requiring repayment.

IMPACT ON TAXPAYERS                                  Currently, the IRS does not have the ability to
                                                     identify individuals who received the Credit and
Approximately 1.8 million taxpayers claimed a        their purchased homes cease to be their main
total of almost $12.5 billion in First-Time          residences, which requires repayment. The IRS
Homebuyer Credits in Calendar Year 2009.             is developing a comprehensive strategy to
More than 950,000 taxpayers will be required to      address repayment provisions in the law. The
repay the Credits because their homes were           strategy objectives include identifying third-party
purchased in 2008. Many more may have to             data sources to ensure individuals are
repay the Credits if the homes cease to be the       complying with the provisions in the law.
primary residences of the taxpayers within
36 months.                                           TIGTA also identified 1,326 single taxpayers the
                                                     Social Security Administration recorded as
WHY TIGTA DID THE AUDIT                              deceased who claimed $10.1 million in
                                                     erroneous Credits. The IRS did not allow 528 of
The Housing and Economic Recovery Act
                                                     the 1,326 individuals to receive over $4 million
of 2008 created a new First-Time Homebuyer
                                                     they claimed for the Credit.
Credit equal to 10 percent of the purchase price
of the home, limited to a maximum amount of          WHAT TIGTA RECOMMENDED
$7,500. The Credit served as an interest-free
loan that must be repaid over a 15-year period.      TIGTA recommended that the Commissioner,
Subsequent laws expanded the Credit and              Wage and Investment Division, 1) correct the
eliminated the repayment requirement, except in      purchase dates for the 68,924 accounts TIGTA
those instances in which the home is sold or no      identified as having incorrect purchase dates
longer the taxpayer’s primary residence within       and 2) ensure the 798 individuals who TIGTA
36 months.                                           identified as being deceased prior to the
                                                     purchase of the home are entitled to claim the
A prior TIGTA review reported that the Internal      Credit.
Revenue Service (IRS) could not distinguish
between 2008 and 2009 home purchases and             In their response to the report, IRS officials
outlined concerns that controls would not be         agreed the claims for the Credit for the 68,924
adequate to prevent erroneous or fraudulent          accounts were processed early in the program
claims for the Credit.                               and some purchase dates were incorrectly
                                                     recorded in IRS systems. The IRS plans to use
WHAT TIGTA FOUND                                     third-party property records to verify home
                                                     purchase or disposition information and to refer
The IRS developed computer coding to record a
                                                     discrepancies for appropriate resolution. In
special indicator during processing of tax returns
                                                     addition, it plans to audit the 798 accounts and
and adjustment transactions to distinguish
                                                     recapture the claims paid out, if necessary.
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                August 16, 2010


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – A Comprehensive Strategy Is Being Developed to
                                 Identify Individuals With First-Time Homebuyer Credit Repayment
                                 Requirements (Audit # 201040101)

 This report presents the results of our review to determine whether the Internal Revenue Service
 has developed effective strategies to administer the First-Time Homebuyer Credit, recapture the
 Credit from taxpayers when appropriate, and prevent improper Credits. This review is included
 in our Fiscal Year 2010 Annual Audit Plan and addresses the major management challenge of
 Implementing Tax Law Changes.
 The American Recovery and Reinvestment Act of 2009 (Recovery Act) 1 provides separate
 funding to the Treasury Inspector General for Tax Administration through September 30, 2013,
 to be used in oversight activities of Internal Revenue Service programs. This audit was
 conducted using Recovery Act funds.
 Management’s complete response to the draft report is included in Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and
 Account Services), at (202) 622-5916.




 1
     Pub. L. No. 111-5, 123 Stat. 115 (2009).
                        A Comprehensive Strategy Is Being Developed to
                      Identify Individuals With First-Time Homebuyer Credit
                                     Repayment Requirements




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 6
          Actions Have Been Taken to Implement Recapture/Repayment
          Provisions Relating to the First-Time Homebuyer Credit ............................Page 6
                    Recommendation 1:.........................................................Page 9

          Social Security Administration Information Can Be Used to
          Identify Erroneous Claims Filed by Individuals Using
          Social Security Numbers of Deceased Individuals.......................................Page 11
                    Recommendation 2:........................................................Page 13


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 14
          Appendix II – Major Contributors to This Report ........................................Page 17
          Appendix III – Report Distribution List .......................................................Page 18
          Appendix IV – Outcome Measures...............................................................Page 19
          Appendix V – New Sections of the First-Time Homebuyer Credit and
          Repayment of the Credit (Form 5405) for Reporting the Disposition or
          Changes in Use of Main Home and Repayment of the Credit......................Page 21
          Appendix VI – Management’s Response to the Draft Report ......................Page 22
        A Comprehensive Strategy Is Being Developed to
      Identify Individuals With First-Time Homebuyer Credit
                     Repayment Requirements




                      Abbreviations

IRS             Internal Revenue Service
SSA             Social Security Administration
TY              Tax Year
                     A Comprehensive Strategy Is Being Developed to
                   Identify Individuals With First-Time Homebuyer Credit
                                  Repayment Requirements




                                            Background

The Housing and Economic Recovery Act of 2008 1 created a new First-Time Homebuyer Credit
(Homebuyer Credit or Credit). The term “first-time homebuyer” means any individual who had
no ownership interest in a principal residence during the
3-year period prior to the purchase of the home. 2 The
Homebuyer Credit was originally available for a limited             To stimulate the housing
time only, applying to taxpayers who purchased a                industry, Congress created the
principal residence after April 8, 2008, and before              First-Time Homebuyer Credit.
July 1, 2009. Eligible taxpayers were allowed to claim a
Credit equal to 10 percent of the purchase price of the home, limited to a maximum amount of
$7,500. The Homebuyer Credit served as an interest-free loan that must be repaid (recaptured) 3
over a 15-year period beginning with the second taxable year following the purchase of the
home. In most instances, the repayment of the Credit would begin in Tax Year (TY) 2010.
Subsequent legislation, the American Recovery and Reinvestment Act of 2009 (Recovery Act) 4
and the Worker, Homeownership, and Business Assistance Act of 2009, 5 revised, extended, and
expanded the Homebuyer Credit. Figure 1 provides a comparison of the various provisions as
they relate to the Homebuyer Credit.




1
  Pub. L. No. 110-289. 122 Stat. 2654 (2008).
2
  Throughout this report, any reference to a year is intended as a calendar year unless otherwise designated.
3
  If a First-Time Homebuyer Credit is allowed to a taxpayer, that taxpayer’s income tax is increased by 6⅔ percent
of the amount of such Credit for each taxable year in the 15-year “recapture period.” The recapture period begins
with the second taxable year following the year of purchase for which the Credit is taken.
4
  Pub. L. No. 111-5, 123 Stat. 316 (2009).
5
  Pub. L. No. 111-92, 123 Stat. 2984 (2009).
                                                                                                           Page 1
                   A Comprehensive Strategy Is Being Developed to
                 Identify Individuals With First-Time Homebuyer Credit
                                Repayment Requirements



Figure 1: Comparison of the First-Time Homebuyer Credit Legislation Provisions
                                                    American Recovery               Worker, Homeownership,
                   Housing and Economic              and Reinvestment               and Business Assistance
   Legislation      Recovery Act of 2008                Act of 2009                       Act of 2009
Home Purchase    April 9, 2008, through         January 1, 2009, through       December 1, 2009, through
Dates            June 30, 2009.                 November 30, 2009.             April 30, 2010, with the closing date
                                                                               of the purchase by June 30, 2010.
                                                                               Dates extended for 1 year for
                                                                               individuals on qualified official
                                                                               extended duty outside of the
                                                                               United States for at least 90 days
                                                                               from December 31, 2008, to
                                                                               May 1, 2010.
Qualifying       Individual (and spouse, if     Individual (and spouse, if     Individual (and spouse, if married)
Individual       married) having no             married) having no             having no ownership interest in a
                 ownership interest in a        ownership interest in a        principal residence in the preceding
                 principal residence in the     principal residence in the     36 months.
                 preceding 36 months.           preceding 36 months.
                                                                               Phase-out of the Credit begins at
                 Phase-out of the Credit        Phase-out of the Credit        $125,000-$145,000 for individuals
                 begins at $75,000-$95,000      begins at $75,000-$95,000      ($225,000-$245,000 for married
                 for individuals ($150,000-     for individuals ($150,000-     filing jointly).
                 $170,000 for married filing    $170,000 for married filing
                 jointly).                      jointly).                      Also includes a Long-Time
                                                                               Resident provision if the individual
                 Individual cannot be a         Individual cannot be a         (and spouse, if married) maintained
                 nonresident alien or related   nonresident alien or related   the same principal residence for
                 to the seller of the home.     to the seller of the home.     any 5 consecutive years during the
                                                                               8 years ending on the date of the
                                                                               purchase.
Amount of the    10 percent of the purchase     10 percent of the purchase     10 percent of the purchase price up
Credit           price up to a maximum of       price up to a maximum of       to a maximum of $8,000 ($4,000, if
                 $7,500 ($3,750, if married     $8,000 ($4,000, if married     married filing separately).
                 filing separately).            filing separately).
                                                                               Long-Time Resident: Maximum of
                                                                               $6,500 ($3,250 if married filing
                                                                               separately).
Accelerated                                     Fully recaptured in year of    Fully recaptured in year of sale if
Repayment                                       sale if home is sold within    home is sold within 3 years of
                                                3 years of purchase.           purchase.




                                                                                                            Page 2
                      A Comprehensive Strategy Is Being Developed to
                    Identify Individuals With First-Time Homebuyer Credit
                                   Repayment Requirements



                                                       American Recovery              Worker, Homeownership,
                       Housing and Economic             and Reinvestment              and Business Assistance
    Legislation         Recovery Act of 2008               Act of 2009                      Act of 2009
 Recapture of the    Fully recaptured over         Fully recaptured in year of   Fully recaptured in year of sale if
 Credit              15 years beginning in         sale if home is sold within   home is sold within 3 years of
                     TY 2010 (if 2008 claim) or    3 years of purchase.          purchase.
                     TY 2011 (if 2009 claim).
                                                   In the case of an             In the case of an involuntary
                     If the taxpayer sells the     involuntary conversion,       conversion, recapture is not
                     home (or the home ceases      recapture is not              accelerated if a new principal
                     to be the principal           accelerated if a new          residence is acquired within a
                     residence of the taxpayer     principal residence is        2-year period.
                     or the taxpayer’s spouse)     acquired within a
                     before the end of the         2-year period.
                     15-year recapture period,
                     any remaining Credit
                     repayment amount is
                     immediately due on the
                     tax return for the year in
                     which the home is sold.
                     In the case of an
                     involuntary conversion,
                     recapture is not
                     accelerated if a new
                     principal residence is
                     acquired within a
                     2-year period.
 Waiver of the       Death of the taxpayer.        Death of the taxpayer.        Death of the taxpayer.
 Recapture of the
 Credit              Sale of the home (including   Sale of the home (including   Individuals (and spouses, if
                     through foreclosure) to an    through foreclosure) to an    married) on qualified extended duty
                     unrelated person with no      unrelated person with no      outside the United States.
                     gain on the sale.             gain on the sale.
                                                                                 Sale of the home (including through
                                                                                 foreclosure) to an unrelated person
                                                                                 with no gain on the sale.
 Documentation       None.                         None.                         Settlement Statement (HUD-1)
 Requirement                                                                     must be attached.
Source: Treasury Inspector General for Tax Administration analysis of legislation.

 Figure 2 shows the total number of taxpayers who claimed the Homebuyer Credit and the
 amount they received in Calendar Year 2009.




                                                                                                              Page 3
                     A Comprehensive Strategy Is Being Developed to
                   Identify Individuals With First-Time Homebuyer Credit
                                  Repayment Requirements



                              Figure 2: Taxpayers Receiving the
                     First-Time Homebuyer Credit in Calendar Year 2009
                                                 Number of
               Type of Return                   Tax Returns                   Total Credit Allowed
      Electronic Tax Returns                           1,048,124                        $7,209,087,792
      Paper Tax Returns                                  211,607                        $1,457,841,430
      Adjusted Tax Accounts                              514,987                        $3,795,671,929
      Totals                                           1,774,718                       $12,462,601,151
     Source: Computerized analysis of Internal Revenue Service (IRS) files representing tax return processing
     through December 31, 2009.

A prior Treasury Inspector General for Tax Administration review raised concerns
as to the IRS’ ability to distinguish between 2008 and 2009 home purchases
In our 2009 Filing Season report 6 we noted that taxpayer accounts were not properly coded to
indicate they purchased their homes during 2009 and outlined our concerns that controls would
not be adequate to prevent erroneous or fraudulent claims for the Credit. 7 Because these
taxpayers purchased their homes in 2009, they should not be required to repay the Homebuyer
Credit. These taxpayers could be subject to the IRS collection process if their accounts are
incorrectly coded. The analysis performed during the prior review identified 47,276 taxpayers
and found that 93 percent (43,967) did not have their IRS accounts properly coded to indicate
their homes were acquired in 2009.
We recommended that the IRS ensure taxpayer accounts were properly coded by identifying
previously processed tax returns that were not coded accurately and ensuring subsequently
processed tax returns are properly coded. The IRS disagreed with this recommendation and
stated that it had gone to considerable lengths to mark accounts with year of purchase and the
dollar value of the Credit issued. The IRS intends to track this information for taxpayers who are
required to pay back the Credit based on the legal requirements in the legislation, and as it
determines what compliance activities will be conducted, it will validate the information to
ensure only those taxpayers who have not met their responsibilities are contacted. This will
include ensuring the date of purchase was accurately captured.
This review was performed at the Austin, Texas, Submission Processing Site. It includes review
of individual income tax returns filed nationwide as well as analysis of data provided by the
Wage and Investment Division Headquarters in Atlanta, Georgia; the Submission Processing

6
  The 2009 Filing Season Was Successful Despite Significant Challenges Presented by the Passage of New Tax
Legislation (Reference Number 2009-40-142, dated September 21, 2009).
7
  Taxpayers who purchased homes before specific dates in 2009 had the option to either claim a Credit on their
TY 2008 return or on their TY 2009 tax return.
                                                                                                           Page 4
                  A Comprehensive Strategy Is Being Developed to
                Identify Individuals With First-Time Homebuyer Credit
                               Repayment Requirements



function offices in Lanham, Maryland, and Cincinnati, Ohio; and the Applications Development
function of the Modernization and Information Technology Services in Lanham, Maryland,
during the period August 2009 through March 2010. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 5
                    A Comprehensive Strategy Is Being Developed to
                  Identify Individuals With First-Time Homebuyer Credit
                                 Repayment Requirements




                                     Results of Review

Actions Have Been Taken to Implement Recapture/Repayment
Provisions Relating to the First-Time Homebuyer Credit
Legislation relating to the First-Time Homebuyer Credit contained specific provisions that
require recapture/repayment of the Credit (see Figure 1). In response to legislation, the IRS
performed extensive programming and created numerous tax products to address the
recapture/repayment provisions. For example, the IRS
developed the First-Time Homebuyer Credit and
                                                                   To implement Homebuyer
Repayment of the Credit (Form 5405) which includes:                  Credit provisions for
    • Part III – Disposition or Change in Use of Main                     recapture/repayment, the IRS
                                                                         developed new tax products and
      Home for Which the Credit was Claimed.                               created a Homebuyer Credit
                                                                             Entity Section on the tax
    • Part IV – Repayment of Credit Claimed for 2008.
                                                                             accounts of individuals
These parts are to be prepared by those individuals who                        receiving the Credit.
claimed the Homebuyer Credit in 2008 and will have to
repay the Credit and/or those individuals who disposed of
their homes, 8 requiring immediate recapture of the Credit. We reviewed tax products affected by
the Homebuyer Credit and found all were accurately updated for Parts III and IV to provide
individuals with the information needed to report a disposition or a change in the use of their
main home. However, because the IRS did not expect individuals to start repaying the Credit
until TY 2010, there are only instructions for capturing the data for Parts III and IV. There are
no current instructions for IRS employees; however, the computer programs are in place to
automatically adjust the taxpayers’ accounts. The IRS stated it expects to have instructions
available for the 2011 Filing Season. As part of our annual Filing Season review, we identified
tax returns with information in Parts III and IV to determine if they were accurately processed.
Appendix V provides an example of Form 5405, Parts III and IV.
Computer coding was developed to record a special indicator during processing of tax returns
and adjustment transactions to show whether the Credit must be repaid. In addition, the IRS also
created a Homebuyer Credit Entity Section on the tax accounts for each individual that received
the Credit. The Entity Section contains Homebuyer Credit data for the primary and secondary
taxpayer (for married taxpayers filing jointly) including the amount of the Credit and year in


8
 See Figure 1 for specific provisions relating to repayment and immediate recapture of the First-Time Homebuyer
Credit.
                                                                                                         Page 6
                    A Comprehensive Strategy Is Being Developed to
                  Identify Individuals With First-Time Homebuyer Credit
                                 Repayment Requirements



which the home was purchased. The Homebuyer Credit Entity Section will also show the
cumulative amount of the Credit that has been repaid. The IRS plans to update the Entity
Section when tax returns with Form 5405 with entries in Part III or Part IV are processed.
Computer programs will be run quarterly to analyze information in taxpayers’ accounts and
determine whether the Credit must still be repaid and how much of the Credit still needs to be
recaptured. Figure 3 provides an example of the information included in this Entity Section.
               Figure 3: Example of New Homebuyer Credit Entity Section




Source: Homebuyer Credit Entity Section on the IRS computer systems.

The Homebuyer Credit Entity Section was accurate for individuals receiving the
Credit
The accuracy of the Homebuyer Credit Entity Section is dependent upon the presence and
accuracy of the special indicator. Our review of the 1,774,718 individuals who received the
Homebuyer Credit identified that the Homebuyer Credit Entity Section for 1,763,189
(99.4 percent) individuals was accurate (i.e., the Homebuyer Credit amount received agreed with
the amounts on the Homebuyer Credit Entity Section). The remaining 11,529 did not have a
Homebuyer Credit Entity Section created because the amount of the Homebuyer Credit was
insignificant—the amount of the Credit was less than the cost to recover the Credit.

Processes were developed to distinguish between most of the 2008 and 2009
purchases; however, some dates were recorded incorrectly
The IRS recognized the need to distinguish individuals with a 2008 home purchase from those
with a 2009 home purchase. Nonetheless, our analysis identified that in some instances the IRS
did not accurately distinguish between individuals with a 2008 home purchase and those with a



                                                                                          Page 7
                     A Comprehensive Strategy Is Being Developed to
                   Identify Individuals With First-Time Homebuyer Credit
                                  Repayment Requirements



2009 home purchase. We identified that an estimated 9 73,119 (4.1 percent) of the 1,774,718
individuals receiving the Homebuyer Credit had incorrect purchase dates shown on the IRS
computer system.
         Figure 4: Homebuyer Credit Claims Recorded Incorrectly by the IRS

        Claims                   Problem With the Recording of the Claim by the IRS

          59,802        Home purchased in 2009 but incorrectly recorded as 2008 or the year
                        was not recorded. These taxpayers could incorrectly receive notices
                        requiring repayment (49,480 were electronically filed tax returns and
                        10,322 were estimated paper tax returns).
           9,122        Home purchased in 2008 but incorrectly recorded as 2009 or the year
                        was not recorded. This could result in potential revenue loss of
                        $30.6 million as these individuals would not be required to repay the
                        Homebuyer Credit even though their purchase was in 2008 (6,541
                        were electronically filed tax returns and 2,581 were estimated paper
                        tax returns).
           4,195        No purchase date on the Form 5405 or the purchase date was prior
                        to 2008. These claims should not have been processed. (This issue
                        is being addressed in a separate audit on the review of erroneous
                        claims of the Credit and is only provided for informational purposes.)
    Source: Treasury Inspector General for Tax Administration analysis of IRS data.

In addition, 514,987 (29 percent) of the 1,774,718 claims have purchase dates that cannot be
verified to the Homebuyer Credit Entity Section because the data were not captured by IRS
computers. These Homebuyer Credits involve Amended Tax Returns and other account
adjustments. We have a separate audit to verify the accuracy of the purchase date information
for these individuals. 10
The identification of the year in which the home was purchased is important because different
requirements exist for mandatory repayment of the Homebuyer Credit.
    •    Property Purchased in 2008 – The law mandates that individuals repay the Homebuyer
         Credit in 15 equal annual installments beginning with the 2010 income tax year. The


9
  Our figures are provided as estimates because complete information for all returns was not available electronically
for analysis. We were able to identify a specific number of individuals with incorrect/incomplete purchase dates for
electronically filed tax returns as all the information from Forms 5405 is captured. However, for paper-filed tax
returns, the IRS did not store the purchase date from Forms 5405 into electronic records during the period January 1
to December 31, 2009. As a result, we projected the figure based on a statistically valid review of paper-filed tax
returns.
10
   TIGTA Audit Number 201040140 – Review of First-Time Homebuyer Credit on Amended Returns is reviewing
the coding of purchase dates.
                                                                                                             Page 8
                  A Comprehensive Strategy Is Being Developed to
                Identify Individuals With First-Time Homebuyer Credit
                               Repayment Requirements



       Homebuyer Credit amount paid is added to the total tax for the year. Our analysis of
       Forms 5405 identified 959,813 taxpayers who had a 2008 purchase requiring repayment
       of $6.5 billion. Accelerated repayment (i.e., the taxpayer pays the outstanding amount of
       the Homebuyer Credit) is required if the home ceases to be the taxpayer’s main residence
       within the 15-year repayment time period.
   •   Property Purchased in 2009 – The law does not mandate that individuals repay the
       Homebuyer Credit unless the purchased home ceases to be the taxpayer’s main residence
       within a 3-year period following the purchase. Our analysis of Forms 5405 identified
       295,723 taxpayers who had a 2009 purchase.

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should correct the
purchase dates for the 68,924 accounts we identified as having incorrect purchase dates recorded.
       Management’s Response: The IRS agreed with this recommendation. The
       First-Time Homebuyer Credit claims for these accounts were processed early in the
       program and some purchase dates were incorrectly recorded in IRS systems. The IRS
       will use third-party property records to verify home purchase or disposition information
       and will refer discrepancies for appropriate resolution.

A comprehensive recapture/repayment strategy is being developed
Currently, the IRS does not have the ability to identify individuals who received the Homebuyer
Credit and their purchased home later ceases to be their main residence, requiring accelerated
recapture. Figure 5 outlines the events that require immediate/accelerated repayment of the
Homebuyer Credit.




                                                                                          Page 9
                  A Comprehensive Strategy Is Being Developed to
                Identify Individuals With First-Time Homebuyer Credit
                               Repayment Requirements



                  Figure 5: Events That Require Immediate/Accelerated
                           Repayment of the Homebuyer Credit

                                 Events That Require Repayment

            •   Home ceases to be the taxpayer’s main home before the end of the
                15-year recapture period.
            •   Home ceases to be the taxpayer’s main home within the 36-month
                period beginning on the purchase date and there is a gain on the
                sale.
            •   Primary residence is sold (or otherwise disposed of) to an unrelated
                individual and the amount of repayment is limited to the amount
                of gain realized on the sale.
            •   Sale of the home to a related person.
            •   Primary residence is destroyed or condemned and taxpayer does
                not acquire a new home in 2 years.
            •   The entire home is converted to business or rental property.

          Source: Worker, Homeownership, and Business Assistance Act of 2009.

The IRS relies on individuals to comply with recapture/repayment tax laws and provide correct
information on their tax returns, including accurately reporting the disposition of their main
residence. The IRS has initiated programming to capture information from Part III and Part IV
of the Form 5405. The IRS plans to use the information included by individuals on Forms 5405
to automatically adjust taxpayer accounts and to update the Homebuyer Credit Entity Section.
The IRS is developing a comprehensive strategy to address recapture/repayment provisions
included in the Housing Economic Recovery Act; the Recovery Act; and the Worker,
Homeownership, and Business Assistance Act of 2009. The strategy objectives include
identifying third-party data sources to ensure individuals are complying with the provisions in
the legislation and focuses on individuals who identify the disposition of their main residence
and individuals who do not identify the disposition of their main residence.
Processes will need to be established to identify taxpayers meeting waiver of recapture
requirements
Legislation includes specific events that waive recapture requirements for individuals. Figure 6
outlines the various events that waive recapture requirements.




                                                                                          Page 10
                   A Comprehensive Strategy Is Being Developed to
                 Identify Individuals With First-Time Homebuyer Credit
                                Repayment Requirements



                   Figure 6: Waiver of the First-Time Homebuyer Credit
                                 Repayment Requirements

                     Special Events That Waive Accelerated Repayment

             •   Death of a taxpayer.
             •   Primary residence is destroyed or condemned and taxpayer
                 acquires a new home in 2 years.
             •   Primary residence is sold to an unrelated individual and there is no
                 gain on the sale.
             •   Individuals (and spouses, if married) on qualified extended duty
                 outside the United States and the home is disposed or ceases to be
                 the primary residence.
             •   The primary residence is foreclosed and there is no gain.

          Source: Worker, Homeownership, and Business Assistance Act of 2009.

Currently, the IRS is unable to identify these events that waive recapture except for the death of
an individual and, like the accelerated recapture requirements, the IRS will have to rely on
individual self-identification of waiver events. However, in the future, these events should be
identified with the new strategy. The IRS’ draft strategy addresses the challenges it will face in
validating waivers of recapture of the Homebuyer Credit. The IRS is evaluating the use of
internal sources (e.g., death records from the Social Security Administration (SSA), military
indicators), external sources (e.g., services that provide information on condemned or destroyed
homes, real estate transactions), or a blend of both to identify valid waivers of recapture. We
will continue to monitor the IRS’ development of its Recapture/Repayment Strategy.

Social Security Administration Information Can Be Used to Identify
Erroneous Claims Filed by Individuals Using Social Security Numbers
of Deceased Individuals
The IRS regularly receives information from the SSA identifying individuals with an issued
Social Security Number, including Date of Birth and the Date of Death (when applicable). The
IRS’ Draft Recapture/Repayment Strategy includes evaluating the use of SSA information to
identify taxpayers waived from recapture. The IRS regularly uses SSA information during the
processing of tax returns to ensure the eligibility of dependents and eligibility for certain tax
credits, including the Earned Income Tax Credit and the Child Tax Credit.
During our evaluation of the use of SSA data to proactively identify individuals who were
deceased and no longer had repayment requirements we identified individuals who erroneously
claimed the TY 2008 Homebuyer Credit. We identified 1,326 individuals claiming

                                                                                           Page 11
                  A Comprehensive Strategy Is Being Developed to
                Identify Individuals With First-Time Homebuyer Credit
                               Repayment Requirements



$10.1 million in Homebuyer Credits where the home purchase date was after the individual’s
date of death. The IRS did not allow 528 of the 1,326 individuals to receive over $4 million they
claimed for the Homebuyer Credit. The remaining individuals received the Credit.
When a return is filed on behalf of a taxpayer who is recently deceased, the return must be
appropriately notated by the return preparer so that the taxpayer’s account can be properly coded;
however, few of these taxpayers’ accounts were coded to indicate the taxpayers were deceased.
Furthermore, none of these instances were joint returns. Although the purchase may have been
in progress at time of the death, the taxpayer would not have occupied the property as a primary
residence and, therefore, would not have qualified for the Credit. Figure 7 provides a
comparison of the individuals’ dates of death with the dates that the homes were purchased.
                              Figure 7: Comparison of Home
                            Purchase Dates and Dates of Death
                   Taxpayer Deceased Before                              Total Credit
                   the Home Was Purchased            Tax Returns          Claimed
                  0 to 30 Days                                 50          $355,134
                  31 to 60 Days                                65          $468,832
                  61 to 91 Days                                73          $522,527
                  92 to 121 Days                               57          $421,521
                  122 to 152 Days                              65          $480,437
                  153 to 182 Days                              65          $486,322
                  183 to 213 Days                              93          $671,568
                  214 to 243 Days                              63          $480,869
                  244 to 274 Days                              74          $566,679
                  275 to 304 Days                              84          $646,165
                  305 to 335 Days                              77          $579,458
                  336 to 365 Days                              80          $624,655
                  More Than 1 Year                           480         $3,749,740
                  Totals                                   1,326        $10,053,907
                 Source: Computerized analysis of IRS files representing tax return
                 processing through December 31, 2009.

As part of our annual Filing Season audit, we will identify similar erroneous claims for TY 2009
tax returns and provide these to the IRS to initiate compliance and recovery efforts.


                                                                                          Page 12
                 A Comprehensive Strategy Is Being Developed to
               Identify Individuals With First-Time Homebuyer Credit
                              Repayment Requirements



Recommendation
Recommendation 2: The Commissioner, Wage and Investment Division, should ensure
798 individuals who we identified as being deceased prior to the purchase of the home are
entitled to claim the Homebuyer Credit.
       Management’s Response: The IRS agreed with this recommendation. The
       798 accounts, where the Credit appears to have been allowed, will be audited and the
       claims paid out may be recaptured as the facts warrant.




                                                                                        Page 13
                     A Comprehensive Strategy Is Being Developed to
                   Identify Individuals With First-Time Homebuyer Credit
                                  Repayment Requirements



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether the IRS has developed effective
strategies to administer the First-Time Homebuyer Credit, recapture the Credit from taxpayers
when appropriate, and prevent improper Credits.
To accomplish our objective, we:
I.      Assessed the effectiveness of the IRS’ ability to distinguish between tax accounts that
        had received the Homebuyer Credit requiring recapture from those that do not have to be
        repaid.
        A. Interviewed computer programmers and Submission Processing function managers to
           determine whether a strategy plan had been created to document the controls needed
           to monitor repayment obligations.
        B. Determined whether special indicators input during return processing and adjustments
           were accurate to differentiate between homes purchased during 2008 and 2009.
             1. Identified from IRS files electronic returns processed during 2009 with a
                Homebuyer Credit and compared for accuracy the return information to the
                Homebuyer Credit Entity Section recorded on the Master File. 1
                 a) Used computer analysis to compare information from First-Time Homebuyer
                    Credit and Repayment of the Credit (Form 5405) to the Homebuyer Credit
                    Entity Section to identify consistency in the home purchase date information.
                 b) Used judgmental samples of each category of date groupings to verify the
                    accuracy of the analysis by researching the accounts on IRS systems.
        C. Identified 211,607 TY 2008 paper returns processed during 2009 with Homebuyer
           Credits. For a statistical sample (95 percent confidence level, 4 percent expected
           error rate, and ±3 percent precision) of ***1*** taxpayer accounts, we obtained
           Forms 5405 and verified the accuracy of the purchase date and Credit amounts
           recorded on the Master File.
        D. Researched IRS computer program documentation and the Internal Revenue Manual
           to determine whether the IRS had requested the programming and developed
           procedures for processing Form 5405 in 2010.

1
 The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                          Page 14
                A Comprehensive Strategy Is Being Developed to
              Identify Individuals With First-Time Homebuyer Credit
                             Repayment Requirements



      E. Reviewed the updated Form 5405 (Revised December 2009) and related instructions
         to determine whether the information on the form is sufficient to accurately compute
         the Credit amount.
II.   Assessed IRS processes for identifying events that require immediate recapture of the
      Homebuyer Credit.
      A. Reviewed Housing and Urban Development information reporting documents and
         interviewed IRS program analysts to determine whether the IRS can monitor the sale
         of homes for which the Homebuyer Credit was claimed.
      B. Identified 3,391 returns with a Homebuyer Credit and by a taxpayer with SSA date of
         death information.
         1. Reviewed a statistical sample (95 percent confidence level, 4 percent expected
            error rate, and ±3 percent precision) of 156 returns to determine whether the
            account information on the Master File was recorded accurately.
         2. Computer analyzed the accounts of 2,115 single taxpayers and compared the
            information to Form 5405 information to determine whether the taxpayer date of
            death preceded the home purchase date.
      C. Determined whether the IRS had requested the necessary computer programming to
         identify returns subject to the repayment of the Homebuyer Credit.
         1. Researched the IRS’ Work Request Tracking System to determine whether
            requests for computer programming had been timely submitted with criteria for
            identifying the returns requiring recapture and appropriate coordination meetings
            had been scheduled.
         2. Determined whether any special computer extracts from the Master File had been
            requested to identify accounts with address changes after a Homebuyer Credit had
            been issued.
         3. Requested clarification of documentation from analysts as necessary.
      D. Reviewed the Homebuyer Credit Compliance Strategy to determine whether the IRS
         can identify taxpayers who become subject to the immediate recapture provisions of
         the Act(s) by selling or abandoning the home within 3 years of the purchase date.
         1. Determined whether the IRS has any special third-party reporting requirements
            for homes sold after the owner receives the Homebuyer Credit.
         2. Determined whether the Underreporter Program has established criteria to
            identify abandonments.



                                                                                       Page 15
                  A Comprehensive Strategy Is Being Developed to
                Identify Individuals With First-Time Homebuyer Credit
                               Repayment Requirements



           3. Determined whether any special computer extracts from the Master File have
              been requested to identify accounts with address changes after a Homebuyer
              Credit has been issued.
           4. Determined whether the IRS may use the United States Postal Service Change of
              Address file to identify taxpayers who received the Homebuyer Credit and then
              cease to use the home as a primary residence.
III.   Determined whether IRS employees are improperly generating Homebuyer Credit
       adjustments. We determined whether indicators can be identified for Homebuyer Credit
       integrity abuses by preparers, taxpayers, and employees.
       A. Identified Homebuyer Credit adjustments to determine whether the transactions were
          posted accurately to the Master File and supported.
           1. Computer analyzed Forms 5405 and tax return information to identify trends that
              may indicate inappropriate claims of the Homebuyer Credit.
Following procedures in The Practice of Modern Internal Auditing, we selected all statistical
samples based upon a 95 percent confidence level, 4 percent error rate, and ±3 percent precision
rate.
We researched accounts using IRS systems to validate the accuracy of information received from
computer analyses. When computer analyses were performed by staff outside of the audit team,
data validation steps were also conducted by those employees to ensure accuracy of information.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the processes for planning, organizing,
directing, and controlling program operations and controls over information processing for the
2009 and 2010 Filing Seasons. We also evaluated the controls that were incorporated to ensure
accurate and timely recording of transactions and events and to appropriately document changes
to computer programming.




                                                                                         Page 16
                 A Comprehensive Strategy Is Being Developed to
               Identify Individuals With First-Time Homebuyer Credit
                              Repayment Requirements



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Director
Tina M. Parmer, Audit Manager
Lawrence N. White, Lead Auditor
Marcus D. Sloan, Auditor
Jack W. Laney, Audit Evaluator
Richard Hillelson, Information Technology Specialist




                                                                                    Page 17
                 A Comprehensive Strategy Is Being Developed to
               Identify Individuals With First-Time Homebuyer Credit
                              Repayment Requirements



                                                                            Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Technology Officer OS:CTO
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Director, Submission Processing OS:CIO:AD:SP
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Senior Operations Advisor, Wage and Investment Division SE:W:S
   Chief, Program Evaluation and Improvement, Wage and Investment Division
   SE:W:S:PRA:PEI




                                                                                     Page 18
                     A Comprehensive Strategy Is Being Developed to
                   Identify Individuals With First-Time Homebuyer Credit
                                  Repayment Requirements



                                                                                               Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.
For all of the outcomes listed in this appendix, we conducted computer analyses of Calendar
Year 2009 individual income tax returns. The returns were processed by the IRS Submission
Processing sites between January 1 and December 31, 2009, and were posted to the Individual
Master File. 1

Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 59,802 taxpayers that claimed the First-Time Homebuyer
    Credit for a 2009 home purchase, but the Homebuyer Credit Entity Section incorrectly
    identifies the purchase as a 2008 home purchase. These taxpayers could incorrectly receive
    notices requiring repayment (see page 6).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify taxpayers who electronically filed a tax return claiming
the Homebuyer Credit and compared the home purchase date from the First-Time Homebuyer
Credit and Repayment of the Credit (Form 5405) to the information in the Homebuyer Credit
Entity Sections. We identified 49,480 Forms 5405 with 2009 home purchase dates that were
incorrectly identified on the Homebuyer Credit Entity Section. 2
In addition, we also used computer analysis to identify a universe of 211,607 TY 2008
paper-filed tax returns claiming the Homebuyer Credit. We used statistical sampling to identify
and review ***1** returns using a confidence level of 95 percent, a precision factor of ± 3 percent,
and an expected error rate of 4 percent for our sampling criteria. Of the ***1*** tax returns sampled,
we identified ***1*** tax accounts (4.9 percent) with 2009 home purchases recorded incorrectly as
2008 home purchases. Based on the sample results, we estimate that the paper-filed tax return
population contains 10,322 taxpayers with incorrect 2008 home purchase dates. We are



1
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
2
  Taxpayers who purchased homes before specific dates in 2009 had the option to either claim a credit on their TY
2008 return or on their TY 2009 tax return.
                                                                                                          Page 19
                  A Comprehensive Strategy Is Being Developed to
                Identify Individuals With First-Time Homebuyer Credit
                               Repayment Requirements



95 percent confident the number of affected paper-filed tax returns in the population is between
10,012 and 10,632 (the margin of error is ± 310).

Type and Value of Outcome Measure:
•   Cost Savings (Funds Put to Better Use) – Potential; $30.6 million from 9,122 taxpayers with
    2008 home purchases that were improperly identified as 2009 home purchases that do not
    require repayment (see page 6).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify taxpayers who electronically filed a tax return claiming
the Homebuyer Credit and compared the home purchase date from the Forms 5405 to the
information in the Homebuyer Credit Entity Sections. We identified 6,541 Forms 5405 with a
2008 home purchase date that are incorrectly identified on the Homebuyer Credit Entity Section
as a 2009 home purchase date. These taxpayers are required to repay $15.5 million.
In addition, we also used computer analysis to identify a universe of 211,607 TY 2008
paper-filed tax returns claiming the Homebuyer Credit. We used statistical sampling to identify
and review ***1*** returns using a confidence level of 95 percent, a precision factor of ± 3 percent,
and an expected error rate of 4 percent for our sampling criteria. Of the ***1*** tax returns sampled,
we identified ***1*** tax accounts (1.2 percent) that had incorrect purchase dates recorded as
2009 purchases. Based on the sample results, we estimate the population of paper-filed tax
returns contains 2,581 taxpayers with incorrect 2009 home purchase dates that are required to
repay $15.1 million in Homebuyer Credits. We are 95 percent confident the number of affected
paper-filed tax returns in the population is between 2,504 and 2,658 (the margin of error is ± 77).

Type and Value of Outcome Measure:
•   Cost Savings (Funds Put to Better Use) – Potential; $6 million for 798 deceased single or
    head of household taxpayers that erroneously claimed a Homebuyer Credit (see page 11).

Methodology Used to Measure the Reported Benefit:
We identified a total population of 2,115 Homebuyer Credit tax returns for single taxpayers who
received the Homebuyer Credit but were shown by SSA information to be deceased at the time
the return was processed. We identified that the 2,115 deceased single or head of household
taxpayers claimed more than $15.5 million in Homebuyer Credits. Of the 2,115 taxpayers, we
found that 1,326 of these taxpayers with Credits claimed of $10.1 million were identified as
buying the home after their death. IRS compliance efforts did not allow 528 of the 1,326
individuals to receive over $4 million they claimed for the Homebuyer Credit.




                                                                                          Page 20
        A Comprehensive Strategy Is Being Developed to
      Identify Individuals With First-Time Homebuyer Credit
                     Repayment Requirements



                                                         Appendix V

New Sections of the First-Time Homebuyer Credit
  and Repayment of the Credit (Form 5405) for
 Reporting the Disposition or Changes in Use of
    Main Home and Repayment of the Credit




                                                              Page 21
      A Comprehensive Strategy Is Being Developed to
    Identify Individuals With First-Time Homebuyer Credit
                   Repayment Requirements



                                                      Appendix VI

Management’s Response to the Draft Report




                                                            Page 22
  A Comprehensive Strategy Is Being Developed to
Identify Individuals With First-Time Homebuyer Credit
               Repayment Requirements




                                                        Page 23
  A Comprehensive Strategy Is Being Developed to
Identify Individuals With First-Time Homebuyer Credit
               Repayment Requirements




                                                        Page 24
